IN THE SUPREME COURT OF THE UNITED STATES

No. 20-1114

AMERICAN HOSPITAL ASSOCIATION, et al., Petitioners,

v.
XAVIER BECERRA, et al., Respondents.

CERTIFICATE OF COMPLIANCE

I, Richard A. Samp, counsel for amicus curiae The New Civil Liberties Alliance, and a
member of the bar ofthis Court, hereby certify pursuant to Supreme Court Rule 22(g) and (h)
that this amicus curiae brief complies with the word limitations imposed by those rules.
According to the word processing system used to prepare the brief (WordPerfect X5), the word
.~

count of the brief is 6,443, not including the cover, table of contents, table of authorities, and
signature block.

Richard A. Samp !/
New Civil Liberties Alliance
1225 Nineteenth Street, NW, Suite 450
Washington, DC 20036
202-869-5210
Dated: September 10, 2021

